                                                        U.S. DEPARTMENT OF
                                     HOUSING AND URBAN DEVELOPMENT
                                                 OFFICE OF INSPECTOR GENERAL




                                                                                                     MEMORANDUM NO.
                                                                                                     2012-CF-1814


September 25, 2012



MEMORANDUM FOR:                        Dane M. Narode, Associate General Counsel, Office of Program
                                       Enforcement, CACC

                                       //signed//
FROM:                                  Kim Randall, Director, Civil Fraud Division, GA

SUBJECT:                               Final Civil Action: CitiMortgage, Inc., Settled Allegations of
                                          Failing To Fully Comply With HUD-FHA Requirements and
                                          Submitting False Certifications to HUD on FHA Loans


                                                   INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), assisted the U.S. Attorney’s Office, Southern District of New York, in conducting a
review of CitiMortgage, Inc. The review began due to a qui tam1 filing in the U.S. District Court
for the Southern District of New York. The objective of the review was to determine whether
CitiMortgage followed Federal Housing Administration (FHA) requirements when underwriting
FHA loans and certifying to HUD that it complied with applicable requirements.

                                        METHODOLOGY AND SCOPE

To assist the U.S. Attorney’s Office, OIG performed the following:

          Provided loan-level data from HUD’s Single Family Data Warehouse system;
          Provided reports from HUD’s Neighborhood Watch system regarding loans reported by
           CitiMortgage that it deemed to have serious deficiencies, patterns of noncompliance, or
           suspected fraud;

1
    The False Claims Act allows private persons to file suit for violations of the False Claims Act on behalf of the
    Government. A suit filed by an individual on behalf of the Government is known as a qui tam action, and the
    person bringing the action is referred to as a “relator.”


                                                Office of Audit – Civil Fraud Division
                                      400 State Avenue, Suite 501, Kansas City, KS 66101-2406
                                   Visit the Office of Inspector General Website at www.hudoig.gov
          Provided CitiMortgage’s annual lender certifications required for participation in the
           FHA program;
          Provided information and documentation on HUD reviews of CitiMortgage, including
           Mortgage Review Board actions;
          Provided a 2009 OIG audit report on CitiMortgage’s FHA loan underwriting and quality
           control program (2009-KC-1001);
          Researched and provided information on HUD instructions to FHA lenders;
          Provided CitiMortgage’s most recent performance data (defaults and claims) on FHA
           loans that it underwrote and provided guidance on how to interpret the data; and
          Coordinated with various HUD officials to provide information requested by the U.S.
           Attorney’s Office.

The U.S. Attorney’s Office and HUD staff also conducted investigative and legal work to
support the case.

                                                 BACKGROUND

CitiMortgage is a direct subsidiary of Citibank, N.A., and Citibank is an indirect subsidiary of
Citigroup. CitiMortgage is based in O’Fallon, MO. CitiMortgage has participated in the FHA
direct endorsement lender program since 1981. The direct endorsement lender program
authorizes private-sector mortgage lenders to approve mortgage loans for insurance by FHA.
Lenders approved for the program must follow various HUD-FHA requirements and provide
annual and per loan certifications that the lender complies with these requirements when
underwriting and approving loans for FHA insurance.

On or about August 5, 2011, the relator commenced a qui tam action by filing a complaint in the
Southern District of New York against CitiMortgage, Citibank, and Citigroup and filed an
amended complaint on October 20, 2011. The relator alleged, among other things, that the
named entities violated the False Claims Act, 31 U.S.C. (United States Code) 3729 et seq., in
connection with CitiMortgage’s participating in the direct endorsement lender program by
causing the United States or its departments or agents to insure mortgages originated by the
named entities, based on the entities’ false statements that these loans were consistent with
applicable regulations and rules regarding the quality of the mortgages or loans.

On or about February 13, 2012, the U.S. Attorney’s Office intervened (joined the relator’s case
on behalf of HUD) in the civil action against CitiMortgage, Citibank, and Citigroup and entered
into a settlement agreement to resolve the complaint. On February 15, 2012, the U.S. District
Judge approved the settlement and issued a consent judgment2 awarding $158.3 million to the
United States.




2
    A consent judgment is a judgment issued by a judge based on an agreement between the parties to a lawsuit to
    settle the matter, aimed at ending the litigation with a judgment that is enforceable.


                                                           2
                                   RESULTS OF REVIEW

CitiMortgage did not fully comply with FHA requirements when underwriting FHA loans and
certifying to HUD that it complied with applicable requirements.

On February 15, 2012, CitiMortgage, Citibank, and Citigroup agreed to settle the complaint by
paying the Federal Government and relator $158.3 million. The complaint filed by the U.S.
Attorney’s Office alleged that CitiMortgage was liable under the False Claims Act; the Financial
Institutions Reform, Recovery, and Enforcement Act of 1989, 12 U.S.C. 1833a; and the common
law theory of breach of fiduciary duty. The complaint further alleged that during the period
January 1, 2004, to the complaint effective date of February 15, 2012 (the covered period),
CitiMortgage submitted false certifications to FHA and HUD concerning CitiMortgage’s
compliance with the FHA direct endorsement lender program rules and endorsed loans for FHA
insurance in violation of the program rules.

As part of the settlement agreement, CitiMortgage admitted, acknowledged, and accepted
responsibility for certain conduct alleged in the Government’s complaint:

   (1) As a direct endorsement lender, CitiMortgage must comply with certain HUD-FHA
       requirements.
   (2) CitiMortgage failed to comply fully with all HUD-FHA requirements with respect to
       certain loans.
   (3) HUD-FHA rules require direct endorsement lenders to conduct a full review of all loans
       endorsed for FHA mortgage insurance pursuant to the direct endorsement lender program
       that become 60 days past due within the first six payments (early payment defaults).
   (4) CitiMortgage failed to conduct a full review of certain loans that it endorsed for FHA
       mortgage insurance pursuant to the direct endorsement lender program that experienced
       early payment defaults (became 60 days past due within the first six payments).
   (5) For every mortgage loan that CitiMortgage endorsed for FHA mortgage insurance
       pursuant to the direct endorsement lender program, CitiMortgage submitted form HUD
       92900-A or an equivalent form to HUD-FHA (loan-level certifications).
   (6) In each loan-level certification, the direct endorsement lender certifies to HUD-FHA that
       the loan is eligible for FHA mortgage insurance under the direct endorsement lender
       program.
   (7) During the covered period, CitiMortgage endorsed for FHA mortgage insurance pursuant
       to the direct endorsement lender program certain loans that did not meet underwriting
       requirements contained in HUD’s handbooks and mortgagee letters and, therefore, were
       not eligible for FHA mortgage insurance under the direct endorsement lender program.
   (8) As a result, CitiMortgage submitted to HUD-FHA certifications stating that certain loans
       were eligible for FHA mortgage insurance when they were not; FHA insured certain
       loans endorsed by CitiMortgage that were not eligible for FHA mortgage insurance and
       that FHA would not otherwise have insured; and HUD incurred losses when those
       CitiMortgage-endorsed loans defaulted.

CitiMortgage also agreed and committed to work with HUD going forward to maintain business
practices that comply with HUD-FHA requirements applicable to direct endorsement lenders.



                                               3
The $158.3 million settlement payment included the portion payable to the U.S. Department of
Justice and the relator for bringing the lawsuit, and the remainder of the more than $122.8
million was paid to the FHA insurance fund.

                                  RECOMMENDATION

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,

1A.    Agree to allow HUD OIG to post the $122,840,800 recovery to the FHA insurance fund
       to HUD’s Audit Resolution and Corrective Actions Tracking System as an ineligible
       cost.




                                              4
